No. 19-391

 

IN THE

Supreme Court of the United States

ASSURED GUARANTY CORP., et al.,
Petitioners,
Vv.
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, et al.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

BRIEF FOR THE SECURITIES INDUSTRY
AND FINANCIAL MARKETS ASSOCIATION
AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,753 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 24, 2019.

 

Wilson-Epes Printing Co., Inc.
